                National Aeronautics and Space Administration

                    OFFICE OF INSPECTOR GENERAL




                NASA’s Independent Verification and
                       Validation Program




                             OFFICE OF AUDITS
                                AUDIT REPORT
IG-14-024                       JULY 16, 2014
(A-13-008-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ACES         Agency Consolidated End-User Services
ASAP         Aerospace Safety Advisory Panel
FY           Fiscal Year
IV&V         Independent Verification and Validation
IT           Information Technology
NID          NASA Interim Directive
NPR          NASA Procedural Requirement
OCE          Office of Chief Engineer
OMB          Office of Management and Budget
OSMA         Office of Safety and Mission Assurance
O&M          Operations and Maintenance
TDRS         Tracking and Data Relay Satellite
WVU          West Virginia University


                                                       REPORT NO. IG-14-024
JULY 16, 2014




                                                                                            OVERVIEW

          NASA'S INDEPENDENT VERIFICATION AND VALIDATION
                            PROGRAM
                                                                                              The Issue

   NASA develops and operates a variety of space systems, including the International
   Space Station, the Hubble and James Webb Space telescopes, and the Space Launch
   System, each of which require increasingly complex computer software. As part of the
   Agency’s quality control process, NASA’s Independent Verification and
   Validation (IV&V) Program assesses whether software associated with Agency science
   and spaceflight activities will meet program, cost, schedule, and safety requirements.
   Because software developers have an inherent conflict in proving that their software
   works as intended, the IV&V process must be performed by an organization that is
   technically, managerially, and financially independent from the original software
   developers.
   Each year NASA’s Office of the Chief Engineer solicits input from all Agency Centers
   and locations for a list of software under development and selects for IV&V the projects
   with the greatest likelihood for and the worst potential consequences of failure.
   However, NASA does not have sufficient funds to finance IV&V services for all projects
   that meet these criteria. For example, in fiscal year (FY) 2014 NASA identified
   17 projects for IV&V but the Program was only able to fund 13. As a result, the
   remaining projects were required to accept or find other ways to mitigate software-related
   risks.
   Pursuant to language in NASA’s FY 1992 appropriations legislation, the Agency was
   required to provide $10 million to West Virginia University (WVU) to establish an IV&V
   Facility.1 In response to this directive, in January 1992 NASA awarded the West Virginia
   University Research Corporation (the Corporation) a $10 million grant to support IV&V
   research and build a facility for use as a computer operations and research center.2 Located
   in Fairmont, West Virginia, the IV&V Facility (hereinafter Building 1) consists of a
   44,824 square foot building with IV&V Program personnel occupying 20,297 square feet of
   the building and the remaining space leased to other tenants (11,463 square feet) or used as
   mechanical space (13,064 square feet). In July 2010, the IV&V Program leased two floors in
   a building adjacent to Building 1 to house contractor staff (hereinafter Building 2).

   1
       Department of Veteran Affairs and Housing and Urban Development, and Independent Agencies
       Appropriations Act, 1992, Pub. L. No. 102-139, 105 Stat. 736 (October 28, 1991).
   2
       The Corporation was established in 1985 as a nonprofit corporate affiliate of WVU to facilitate research
       efforts. According to its website, the Corporation fosters and supports research at WVU and provides
       evaluation, development, patenting, management, and marketing services for inventions of WVU faculty,
       staff, and students.



REPORT NO. IG-14-024
                                                                                                          OVERVIEW



     As stipulated in the grant, upon completion of Building 1 the title to the facility would
     transfer to the Corporation, which would then become responsible for the building’s
     operations and maintenance (O&M) costs. However, in June 1993 while still
     constructing Building 1, WVU’s Associate Provost for Research wrote West Virginia
     Senator Robert Byrd and Congressman Alan Mollohan expressing concern about the
     Corporation assuming responsibility for Building 1’s O&M expenses and requesting their
     assistance in obtaining an agreement from NASA to cover those costs. Although we
     were unable to determine what action, if any, Senator Byrd and Congressman Mollohan
     took in response to the letter, in July 1993 NASA entered into the first of several
     cooperative agreements and contracts with the Corporation pursuant to which the Agency
     agreed to pay all O&M expenses associated with Building 1.3 Since that time, NASA has
     paid the Corporation approximately $82.8 million in O&M expenses. The most recent
     contract with the Corporation, covering FYs 2014 through 2018, is valued at $40 million.

     In FY 2013, NASA spent $37.5 million on its IV&V Program, with one-third ($12.3
     million) spent on facility and program operations and the remaining two-thirds ($25.2
     million) on actual IV&V services. NASA’s FY 2014 appropriation provided
     $39.1 million for IV&V services and, according to budget documents, the Agency
     expects to request funding of $31 million per year for its IV&V Program for
     FYs 2015 through 2018.

     We initiated this audit to determine whether NASA is appropriately utilizing its IV&V
     funding. Details of the audit’s scope and methodology are in Appendix A.

     Results

     By continuing to occupy and maintain Building 1, NASA is paying more than necessary
     in O&M expenses, leaving the Agency with less funding to perform IV&V services on
     software projects. We estimate that NASA could save as much as $9.7 million between
     FYs 2015 and 2018 if the IV&V Program took steps to reduce O&M expenses associated
     with Building 1. Specifically, we found that between October 2008 and September 2013,
     the IV&V Program spent approximately $36.3 million for O&M expenses associated
     with Building 1. For example, although NASA does not own the Building, the IV&V
     Program paid the Corporation $993,000 in 2010 to replace its roof – $848,000 for the
     roof and $145,000 for a roof replacement consultant.4




     3
         The O&M contract that ended in September 2013 covered insurance, library supplies, phone services,
         postage and shipping, utilities, fire protection, garbage pickup, office supplies, environment maintenance,
         executive administrative assistant, mailroom operations, handyperson services, photocopy services,
         general office furnishings, and special projects.
     4
         We also noted that the Corporation failed to provide a maintenance plan in accordance with the terms of
         the contract.



ii                                                                                          REPORT NO. IG-14-024
OVERVIEW



   We also found that NASA incurred increased O&M expenses for Building 1, in part
   because the Corporation applied indirect costs to purchases it made for the Agency.5 We
   reviewed the indirect costs the Corporation charged NASA between October 2012 and
   May 2013 and noted that indirect cost charges were added to items such as cell phone
   services, activities in support of educational outreach, and information technology
   equipment and services. We identified six purchases that initially cost $212,820, but that
   figure increased to $268,152 with the addition of $55,332 in indirect cost charges.

   In addition, we found that although Buildings 1 and 2 provided office space for IV&V
   Program staff, NASA paid significantly more for space in Building 1. For example, in
   FY 2013 NASA paid $3.41 million in O&M expenses for Building 1, but only $556,128
   to lease 27,293 square feet of space in Building 2. Similarly, in FY 2014, projected
   O&M expenses are $2.64 million for Building 1 compared to $564,470 in rent for
   Building 2.6

   We determined that NASA was not legally obligated to enter into agreements to pay
   O&M expenses associated with Building 1. However, NASA has chosen to pay these
   expenses over the last 20 years through a series of cooperative agreements and contracts
   with the Corporation. In our judgment, continuing this arrangement does not make fiscal
   sense for NASA, particularly when the Agency has more projects needing IV&V services
   than the current budget can accommodate.

   We evaluated three possible options for NASA to lower occupancy costs and increase the
   amount of funding available for IV&V services:

         1. Move IV&V personnel from Building 1 to Building 2.

         2. Relocate West Virginia-based NASA civil servants to the Goddard Space Flight
            Center (Goddard) that provides administrative support to the IV&V Program.

         3. Negotiate with the Corporation to lower O&M expenses.




   5
       Indirect costs are costs incurred for common or joint objectives that cannot be readily and specifically
       identified with a project or activity. Indirect costs are distributed to projects or activities by means of an
       indirect cost rate. The Corporation determined the indirect rate of 26 percent would be added to
       applicable O&M contract purchases.
   6
       In addition to these expenses, for FY 2014, the IV&V Program will pay $3.77 million in O&M and other
       costs common to both buildings for items and services such as security, vehicles, and computers supplied
       through NASA’s ACES contract. These expenses would remain if NASA moved staff out of Building 1.



REPORT NO. IG-14-024                                                                                                    iii
                                                                                     OVERVIEW



     Management Action

     In order to make additional funds available for IV&V services, we recommend the Chief
     of Safety and Mission Assurance and the Goddard Director analyze the alternatives for
     reducing occupancy costs associated with Building 1 and select the most cost-effective
     course of action. If the analysis determines that NASA should abandon the Building, the
     NASA Chief Counsel and the Goddard Space Flight Director should identify the most
     feasible way to dispose of it to obtain the highest possible return for the Agency.

Other Matters

     We found that although NASA appropriately identifies and selects projects needing
     IV&V services, the Agency does not manage projects that qualify for but do not receive
     IV&V in accordance with NASA’s risk management guidance. In January 2013, the
     Aerospace Safety Advisory Panel recommended NASA establish a formal waiver process
     for projects that qualify for but do not receive IV&V services. Although NASA revised
     its risk management guidance in response, in our judgment the revision only partially
     addressed the Panel’s concerns because it did not explicitly address documenting the
     reason for risk acceptance in accordance with Agency policy. Accordingly, we believe
     NASA needs to ensure that the waiver process includes documentation of the increased
     risk in the appropriate risk database that can serve as a key communication tool for
     project management across the Agency. Inclusion of these risks in the database will
     ensure that software safety specialists consider whether additional verification and
     validation is required or the risk can be accepted without mitigation.

     To better assess risks associated with software projects not selected for IV&V, we
     recommend that the Chief of Safety and Mission Assurance ensure that NASA’s IV&V
     waiver process includes documenting the risk of not performing IV&V in accordance
     with NASA’s risk management guidance.

     In response to a draft of this report, NASA concurred with our recommendations and
     agreed to analyze alternatives for reducing Building 1 occupancy costs and ensure
     projects assess and document the risk of not performing IV&V in accordance with
     NASA’s risk management requirements. We consider NASA’s planned actions
     responsive and will close the recommendations upon verification the Agency has
     completed them. We also reviewed management’s comments regarding the technical
     accuracy of the draft and made changes as appropriate. Management’s full response to
     the draft report is reprinted in Appendix C.




iv                                                                        REPORT NO. IG-14-024
JULY 16, 2014




                                                       CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 5



   RESULTS
      More Effective Use of IV&V Funding Would Increase Program
        Productivity _______________________________________ 6
      Other Matters _______________________________________ 11

   APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls ____________________________ 17
      Prior Coverage ______________________________________ 17

   APPENDIX B
      Funds Put to Better Use, Methodology,
        and Projection of Results ____________________________ 18

   APPENDIX C
      Management Comments ______________________________ 21

   APPENDIX D
      Report Distribution ___________________________________ 23




REPORT NO. IG-14-024
JULY 16, 2014




                                                                                       INTRODUCTION


Background

   NASA develops and operates a variety of space systems, including the International
   Space Station, the Hubble and James Webb Space telescopes, and the Space Launch
   System, that require increasingly complex computer software. As part of the Agency’s
   software quality control process, NASA’s Independent Verification and
   Validation (IV&V) Program assesses whether software associated with Agency science
   and spaceflight activities will meet program, cost, schedule, and safety requirements.
   Because software developers have an inherent conflict in proving their software works as
   intended, the IV&V process must be performed by an organization technically,
   managerially, and financially independent from the developers.

   NASA established the Agency’s IV&V Program in response to recommendations made
   in 1986 by the Presidential Commission on the Space Shuttle Challenger Accident. As a
   result of these recommendations, NASA also established the Office of Safety and
   Mission Assurance (OSMA) that same year.7 Two years later, after reviewing the Space
   Shuttle Program and learning that the company that developed the Shuttle software had
   also performed validation and verification, the National Research Council recommended
   that “responsibility for … software IV&V should be vested in entities separate from the
   [Shuttle] Program structure and the centers directly involved in [Shuttle] development
   and operation.” As a result, OSMA became responsible for administering NASA’s
   IV&V Program.8

   NASA’s West Virginia IV&V Facility. Pursuant to language in NASA’s fiscal
   year (FY) 1992 appropriation, the Agency was required to make available $10 million
   from its “construction of facilities funds” to West Virginia University (WVU) to establish
   an IV&V facility.9 In response to this directive, in January 1992, NASA awarded the
   West Virginia University Research Corporation (the Corporation) a $10 million grant to
   support IV&V research and build a computer operations and research center.10 The grant
   required the completed facility host IV&V-related services performed by NASA
   7
        When it was first established, OSMA was known as the Office of Safety, Reliability, and Quality
        Assurance.
   8
        “Report of the Presidential Commission on the Space Shuttle Challenger Accident” (June 6, 1986), and
        National Research Council, “Post-Challenger Evaluation of Space Shuttle Risk Assessment and
        Management” (January 1988).
   9
        Department of Veteran Affairs and Housing and Urban Development, and Independent Agencies
        Appropriations Act, 1992, Pub. L. No. 102-139, 105 Stat. 736 (1991).
   10
        The Corporation was established in 1985 as a nonprofit corporate affiliate of WVU to facilitate the
        University’s research efforts. According to its website, the Corporation fosters and supports research at
        WVU and provides evaluation, development, patenting, management, and marketing services for
        inventions of WVU faculty, staff, and students.



REPORT NO. IG-14-024                                                                                                1
                                                                                                     INTRODUCTION



    personnel, NASA contractors, or WVU staff. The terms of the grant also stated that upon
    completion of construction, the building title would transfer to the Corporation, which
    would then become responsible for the building’s operations and maintenance
    costs (O&M). According to the grant, title would remain with the Corporation so long as
    it uses the building “for the Grant purpose.”

    Located in Fairmont, West Virginia, the IV&V Facility was completed in May 1994 at a
    total cost of $12 million. In accordance with the grant, NASA transferred ownership of
    the facility to the Corporation. The facility – part of WVU’s Marion County Business
    and Technology Campus – consists of a 2-story, 44,824 square foot office building. As
    of May 2014, IV&V Program personnel occupy 20,297 square feet of the building, with
    11,463 square feet leased to other tenants and the remaining 13,064 square feet serving as
    mechanical space.11

    In June 1993, while construction of the facility was ongoing, WVU’s Associate Provost
    for Research wrote West Virginia Senator Robert Byrd and Representative Alan
    Mollohan expressing concern about the Corporation becoming responsible for O&M
    expenses and requested their assistance in obtaining an agreement from NASA to cover
    those costs. Although we were not able to determine what action, if any, Senator Byrd or
    Congressman Mollohan took in response to the letter, in July 1993, NASA entered into
    the first of several cooperative agreements and contracts with the Corporation in which
    the Agency agreed to pay all O&M expenses associated with the building.12 As a result,
    NASA has paid the Corporation approximately $82.8 million over the past 20 years for
    O&M expenses (see Table 1). The most recent contract between NASA and the
    Corporation, which covers FYs 2014 through 2018, is valued at $40 million. In addition
    to covering O&M expenses, NASA signed two cooperative agreements with the
    Corporation, which provided more than $5 million for IV&V-related research.




    11
         The facility is located 23 miles from WVU’s Morgantown campus.
    12
         The O&M contract that ended in September 2013 covered insurance, library supplies, phone services,
         postage and shipping, utilities, fire protection, garbage pickup, office supplies, environment maintenance,
         executive administrative assistant, mailroom operations, handyperson services, photocopy services,
         general office furnishings, and special projects.



2                                                                                            REPORT NO.IG-14-024
INTRODUCTION



          Table 1. NASA IV&V Program Contracts and Cooperative Agreements with
                              WVU Research Corporation
                                                                         Allotted Amounts
                Time Period                Type of Instrument                                           Total
                                                                      Research         O&M
                                         O&M Pre-contract
    July-August 1993                                                           $0        $63,269         $63,269
                                         Cost Authorization
    July 1993-February 1994              O&M Contract                          0         504,359        $504,359
    March 1994-February 1997             Cooperative Agreement        1,728,600,       4,175,035      $5,903,635
    March1997-September 2003             Cooperative Agreement         3,454,833      16,194,477     $19,649,310
    September 2003-September 2008        O&M Contract                          0      25,571,284     $25,571,284
    October 2008-September 2013          O&M Contract                          0      36,306,809     $36,306,809
    Total                                                             $5,183,433    $82,815,233      $87,998,666
   Source: NASA Office of Inspector General summary of cooperative agreement and contract data provided by IV&V
   Program officials.

   NASA IV&V Program Staffing. As of May 2014, 273 employees – 224 contractors,
   44 civil servants, and 5 WVU staff – perform IV&V-related services for NASA.
   Approximately 47 employees (44 civil servants and 3 WVU employees) are housed in the
   facility NASA built, hereafter referred to as Building 1. Beginning in July 2010, the
   IV&V Program leased space in a nearby private office building (hereafter referred to as
   Building 2) for approximately 144 contractors. In addition to the contractors in Building
   2, approximately 82 IV&V contractors are located throughout the United States,
   including 58 at various contractor and other locations, 22 employees at 4 NASA Centers,
   and 2 at WVU.13 See Figure 1 for a photo of Buildings 1 and 2.

                                Figure 1. NASA IV&V Program Facility




   Source: IV&V Program's website.




   13
        The Centers are Goddard Space Flight Center, Johnson Space Center, Kennedy Space Center, and
        Marshall Space Flight Center.



REPORT NO. IG-14-024                                                                                               3
                                                                                                          INTRODUCTION



    NASA IV&V Program Funding. The IV&V Program budget funds IV&V services, as
    well as O&M and other costs associated with maintaining Buildings 1 and 2. In
    FY 2013, NASA spent $37.5 million on its IV&V Program, with $12.3 million going
    toward facility and program operations and the remaining $25.2 million toward IV&V
    services. NASA’s FY 2014 appropriation provided $39.1 million for the IV&V Program,
    and the Agency expects to request $31 million per year for the Program for
    FYs 2015 through 2018. Table 2 shows the past and future budget allocations for facility
    operations and IV&V services.

                                   Table 2. NASA’s IV&V Program Budget
                                                                        Dollars in millions
                     Fiscal Year                      Facility/Program
                                                                             IV&V Services                  Total
                                                        Operations
     2011a                                                          $13.7                $26.2                    $39.9
     2012a                                                           13.1                 26.0                    $39.1
     2013a                                                           12.3                 25.2                    $37.5
     2014b                                                           13.6                 25.5                    $39.1
     2015b                                                           12.3                 18.7                    $31.0
     2016b                                                           12.6                 18.4                    $31.0
     2017b                                                           12.8                 18.2                    $31.0
     2018b                                                           13.0                 18.0                    $31.0
     a
         FYs 2011 through 2013 are actuals.
     b
         FYs 2014 through 2018 are based on the President’s budget. On January 13, 2014, the Consolidated Appropriations
         Act stated that in FY 2014 not less than $39.1 million would be provided for IV&V-related activities.
     Source: NASA IV&V Program officials.

    Based on estimates in the President’s budget, under NASA’s $31 million IV&V funding
    request for FY 2018, 42 percent of these funds would be allocated toward facility and
    program operations with the remaining 58 percent spent on IV&V services.

    The IV&V Program budget funds five offices:

             IV&V Services includes technical mission support, software assurance tools and
              licenses, independent testing capability, and capability development.

             The Office of the Director includes civil servant salaries, awards, training, and
              travel.

             The Strategic Communication Office includes knowledge management; public
              affairs; science, technology, engineering, and math (STEM) intern program; and
              educational outreach.

             The Safety and Mission Assurance Support Office includes software assurance
              support across Centers.

             The Program Support Office includes O&M, security, information technology,
              and vehicles.


4                                                                                                 REPORT NO.IG-14-024
INTRODUCTION



   IV&V Selection Process. When selecting projects that will receive IV&V services, the
   Office of the Chief Engineer (OCE) solicits input from all NASA locations regarding
   software under development, and identifies those projects with the greatest likelihood for
   and worst potential consequences of failure. Based on this information, the OCE selects
   the highest criticality software projects for IV&V. The IV&V Program creates an IV&V
   Project Execution Plan (IPEP) for those projects.14 The IV&V Board of Advisors, under
   the leadership of the Chief of OSMA, reviews the projects selected by the OCE and
   makes a recommendation to the Chief of Safety and Mission Assurance regarding which
   projects to fund.15 If funding is not available to perform IV&V services on all identified
   projects, NASA guidance permits a project to receive a waiver from the IV&V
   requirement.

Objective

   The objective of this audit was to determine whether NASA was appropriately utilizing
   its IV&V funding. Details of the audit’s scope and methodology are in Appendix A.




   14
        The IPEP informs the originating project about IV&V interactions, roles and responsibilities, technical
        products, and reporting methods and reflects who will conduct the IV&V services and how they plan to
        evaluate the software.
   15
        The IV&V Board of Advisors is a NASA-level board chaired by the Chief of OSMA comprised of
        advisors representing each Mission Directorate, the Chief Information Officer, the Chief Engineer, the
        Goddard Center Director, and the NASA IV&V Program Director.



REPORT NO. IG-14-024                                                                                              5
                                                                                                                    RESULTS




                           MORE EFFECTIVE USE OF IV&V FUNDING WOULD
                                      INCREASE PROGRAM PRODUCTIVITY
               NASA is paying more than necessary in O&M expenses by continuing to occupy and
               maintain Building 1, which leaves the Agency with less funding to perform IV&V
               services on critical projects. We estimated that NASA could save as much as $9.7 million
               between FYs 2015 and 2018 if the IV&V Program took steps to reduce O&M expenses
               associated with Building 1 – money that could be used to evaluate more Agency software.
NASA Can Make More Funds Available for IV&V Services by
 Reducing its Facilities-Related Costs

    Each year the NASA IV&V Board of Advisors identifies more software projects for IV&V
    services than the IV&V Program is able to fund. For example, for FY 2014 the Board identified
    17 projects for IV&V, but the Program was only able to fund 13 (see Table 3).16 As a result, the
    other projects were required to accept or find other ways to mitigate software-related risks.
                    Table 3. Projects Funded and Not Funded for IV&V in FY 2014
                                      Funded                                                  Not Funded
           Mars Atmosphere and Volatile Evolution (MAVEN)                         Soil Moisture Active and
           Magnetosphere Multi-Scale mission (MMS)                                 Passive (SMAP)
           Global Precipitation Measurement (GPM)                                 Ice, Cloud, and Land Elevation
           James Webb Space Telescope (JWST)                                       Satellite-2 (ICESat-2)
           International Space Station (ISS)                                      Gravity Recovery and Cloud
                                                                                    Experiment-Follow On (GRACE-
           Multi-Purpose Crew Vehicle (MPCV)
                                                                                    FO)
           Space Launch System (SLS)
                                                                                   Tracking and Data Relay
           Ground Systems Development and Operations (GSDO)                        Satellite-L (TDRS-L)
           Transiting Exoplanet Survey Satellite (TESS) a
           Space Network Ground Segment Sustainment (SGSS) b
           Origins-Spectral Interpretation-Resource
            Identification-Security-Regolith Explorer (OSIRIS-Rex) b
           Solar Probe Plus (SPP) b
           Interior Exploration using Seismic Investigations, Geodesy
            and Heat Transport (InSIGHT) b
     a
          The IV&V Board of Advisors funded further research on TESS to develop recommendation on the level of IV&V to be
          performed.
     b
          Programs funded through an additional $7.8 million allocation for IV&V services contained in NASA’s FY 2014
          appropriation.
     Source: IV&V Board of Advisors, September 2013 meeting.




    16
         The President’s budget for 2014 provided $31.3 million for IV&V services. This level of funding was
         sufficient to fund IV&V services for only 9 of the selected projects. NASA’s FY 2014 appropriation
         allocated an additional $7.8 million for IV&V services, thereby allowing the Agency to fund services for
         4 additional projects– “Consolidation Appropriations Act, 2014.”


6                                                                                                 REPORT NO. IG-14-024
RESULTS



   We looked for possible efficiencies to increase the level of IV&V services and found that
   the IV&V Program could free up additional funding if the Program followed the
   provisions of the original grant and stopped paying O&M expenses for Building 1. Over
   a 20-year period – July 1993 through September 2013 – NASA paid the Corporation
   $82.8 million in O&M expenses by entering into a series of cooperative agreements and
   contracts (as shown in Figure 2).
                                                        Figure 2. Facility O&M Expenses

    $40,000,000                                                                   $36,306,809   Precontract Agreement,
                                                                                                August 1993
    $35,000,000
    $30,000,000                                                                                 O&M Contract August 1993-
                                                                        $25,571,284             February 1994
    $25,000,000
                                                                                                Cooperative Agreement,
    $20,000,000                                                                                 March 1994-February 1997
                                                        $16,194,477
                                           $4,175,035




    $15,000,000                                                                                 Cooperative Agreement,
                                                                                                March 1997-September 2003
    $10,000,000
                                $504,359




                                                                                                O&M Contract,
                      $63,269




        $5,000,000                                                                              October 2003-September 2008

                 $0                                                                             O&M Contract,
                      1993/1994 1997                                  2003       2008           October 2008-September 2013
                Construction of Building 1 completed in May 1994.
   Source: NASA Office of Inspector General summary of cooperative agreement and contract data provided by IV&V
   Program officials.

   We reviewed the O&M expenses for the most recently completed contract period
   (October 2008 through September 2013) and found that the IV&V Program spent
   approximately $36.3 million. For example, although NASA does not own Building 1, the
   IV&V Program paid the Corporation $993,000 to replace the building’s roof – $848,000
   for the roof and $145,000 for a roof replacement consultant.17

   In addition, we found that NASA’s O&M expenses increased because the Corporation
   applied indirect costs to purchases it makes for the Agency.18 During the October 2008
   through September 2013 contract period, the IV&V Program paid about $2 million in
   indirect costs to the Corporation. We reviewed indirect costs charged to NASA between
   October 2012 and May 2013 and noted that the Corporation added these charges to a
   variety of items, such as cell phone services, activities in support of educational outreach,
   and information technology equipment and services. As shown in Table 4, we identified


   17
        We also noted that the Corporation failed to provide a maintenance plan in accordance with the terms of
        the contract.
   18
        Indirect costs are costs incurred for common or joint objectives that cannot be readily and specifically
        identified with a project or activity. Indirect costs are distributed to projects or activities by means of an
        indirect cost rate. The Corporation determined the indirect rate of 26 percent would be added to
        applicable O&M contract purchases.



REPORT NO. IG-14-024                                                                                                          7
                                                                                                          RESULTS



    six purchases that initially cost $212,820, however, the inclusion of $55, 332 in indirect
    cost charges resulted in a total cost to the Agency of $268,152.

                  Table 4. Examples of IV&V Program Purchases with Indirect Costs
                                      Added by the Corporation
                          Item Purchased                            Item Cost      Indirect Cost      Total
        U.S. cellular cell phone billa                                      $786             $204          $990
        Honey Baked Ham – Students Day in the Parkb                       10,930            2,842        $13,772
        Speaker Day in the Parkb                                           6,500            1,690         $8,910
        Dell KACE Renew                                                    3,020              785         $3,805
        Dell Precision T7600a                                             60,000           15,600       $75, 600
        Direct labor (salaries and benefits)a                            131,584           34,211      $165, 795
        Total                                                           $212,820          $55,332      $268,152
    a
        The item was purchased to support operations at Building 1 and 2.
    b
        The item was purchased to support education-related activities.
    Source: Data provided by IV&V Program officials.

    We determined that upon completion of construction of Building 1, NASA was not
    legally obligated to pay the facility’s O&M expenses, which should have been the
    responsibility of the Corporation as designated in the original grant. In our judgment, it
    does not make fiscal sense for NASA to continue to pay these expenses, particularly
    when it has more projects needing IV&V services than its current budget can
    accommodate.

NASA Should Reduce IV&V Occupancy Costs
    NASA has options to lower occupancy costs and increase the amount of funding
    available for IV&V services. Although Buildings 1 and 2 both provide office space for
    IV&V Program staff, NASA pays significantly more for the space in Building 1. For
    example, in FY 2013, NASA paid $3.41 million in O&M expenses for Building 1 but
    only paid $556,128 to lease 27,293 square feet in Building 2. Similarly, for FY 2014,
    projected O&M expenses for Building 1 are $2.64 million compared to $564,470 in rent
    for Building 2.19

    We evaluated three possible alternatives to reduce the IV&V Program’s O&M expenses:

           1. Move IV&V personnel from Building 1 to Building 2.
           2. Relocate West Virginia-based civil service staff to the Goddard Space Flight
              Center (Goddard).20
           3. Negotiate with the Corporation to lower O&M expenses.

    19
         In addition to these expenses, for FY 2014 the IV&V Program will pay $3.77 million in O&M and other
         costs common to both buildings for items and services such as security, vehicles, and computers supplied
         through NASA’s ACES contract. These expenses would remain if NASA moved staff out of Building 1.
    20
         The NASA IV&V Program receives administrative support from Goddard Space Flight Center.



8                                                                                           REPORT NO. IG-14-024
RESULTS



   As shown in Table 5, each of these alternatives would generate significant savings
   compared to the current arrangement. See Appendix B for additional analysis on these
   potential cost savings.

                                    Table 5. IV&V Program Potential Savings
                   Fiscal Year                      Alternative 1a             Alternative 2b             Alternative 3c
       2015                                               ($217,748)                 ($458,314)                   $675,953
       2016                                               2,698,571                  3,268,381                     593,640
       2017                                               2,747,407                  3,329,583                     607,624
       2018                                               2,918,527                  3,513,370                     742,949
       Total                                             $8,146,757                 $9,653,020                  $2,620,166
   a
        Alternative 1 – Savings for moving out of Building 1 and into Building 2.
   b
        Alternative 2 – Savings for relocating civil servants to Goddard (locality pay not included in computation).
   c
        Alternative 3 – Savings for negotiating lower costs for Building 1.
   Source: Alternatives 1 and 2 are based on NASA Office of Inspector General assumptions and calculations, and
   Alternative 3 is based on calculations provided by IV&V Program officials.

   In addition to these savings alternatives, NASA IV&V officials attempted to negotiate
   with the Corporation to lower O&M expenses, with possible savings for FYs 2014
   through 2018 totaling $2.62 million or 8.53 percent. However, during our audit, a WVU
   official stated they were not interested in negotiating to lower O&M expenses. The
   negotiations ended with no agreement reached between the IV&V Program and WVU.
   The IV&V Director noted that WVU was not concerned if the IV&V Program continued
   to occupy Building 1. According to a WVU official, the NASA IV&V Facility is a “zero
   sum gain” for the University, meaning that the Facility does not cost WVU any money
   nor does it provide any benefit to the University, therefore WVU is indifferent as to
   whether the IV&V Program continues to occupy the Building.

   Should NASA officials conclude it is in the Agency’s best interest to abandon Building 1,
   the Agency will have to consider disposal options for the Building. Office of
   Management and Budget guidance identifies three possibilities for the disposition of
   property such as Building 1:21

           1. NASA may seek compensation from the Corporation for the percentage of the
              current fair market value of the property attributable to the Agency’s participation
              in the project and permit the Corporation to retain title.

           2. NASA may direct the Corporation to sell the property and pay the Agency for the
              percentage of the current fair market value of the property attributable to its
              participation in the project.



   21
        Office of Management and Budget Circular A-110, “Uniform Administrative Requirements for Grants
        and Other Agreements with Institutions of Higher Education, Hospitals and Other Non-Profit
        Organizations,” revised November 19, 1993, as further amended September 30, 1999.



REPORT NO. IG-14-024                                                                                                         9
                                                                                                          RESULTS



            3. NASA may compensate the Corporation for the percentage of the current fair
               market value of the property attributable to the Corporation’s participation in the
               project and direct the Corporation to transfer title to the property back to the
               Agency or an eligible third party.22.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response
     In order to make additional funds available for IV&V services, we made two
     recommendations to NASA management.
     Recommendation 1. The Chief of Safety and Mission Assurance and the Director of
     Goddard should analyze the alternatives for reducing occupancy costs associated with
     Building 1 and select the most cost-effective alternative.

            Management’s Response. Management concurred, stating that by December 31,
            2014, they will analyze alternatives for reducing Building 1 occupancy costs and
            select a course of action that provides the best value for the Agency.

            Evaluation of Management’s Response. Management’s comments are responsive;
            therefore, the recommendation is resolved and will be closed upon verification and
            completion of the proposed corrective action.

     Recommendation 2. If the analysis determines NASA should abandon Building 1, the
     NASA Chief Counsel and the Goddard Center Director should identify the most feasible
     way to dispose of Building 1 to obtain the highest possible return for the Agency.

            Management’s Response. Management concurred, stating that if the analysis
            determines NASA should abandon the Building, the Goddard Center Director and the
            NASA property management team, in consultation with the NASA General Counsel,
            will identify the best way to dispose of it. Estimated date of completion is dependent
            upon the outcome of Recommendation 1.

            Evaluation of Management’s Response. Management’s comments are responsive;
            therefore, the recommendation is resolved and will be closed upon verification and
            completion of the proposed corrective action.




     22
          The Assessor for Marion County, where the IV&V Facility is located, values Building 1 at $7.2 million
          and the land on which it sits at $717,000.



10                                                                                        REPORT NO. IG-14-024
RESULTS




                                                                                     OTHER MATTERS


   We found that while NASA appropriately identifies projects requiring IV&V services,
   the Agency does not manage projects that need but do not receive these services in
   accordance with NASA’s risk management guidance. In its January 2013 “Annual
   Report for 2012” to Congress and NASA, the Aerospace Safety Advisory Panel (ASAP)
   recommended that NASA change the Agency’s IV&V selection process to define a level
   of criticality for software that would require IV&V services and institute a waiver process
   for software that do not receive these services.23 ASAP stated that “if (IV&V) is not
   done then the reason for risk acceptance needs to be formally documented as it would be
   for any other known accepted risk.” In response, the OCE issued new guidance regarding
   the IV&V selection process, as shown in Figure 3.

                     Figure 3. IV&V Project Identification and Selection Process




   Source: NASA Procedural Requirement7150.2A, NID 7150-1, and ASAP’s “Annual Report for 2012.”




   23
        ASAP is a NASA advisory committee composed of senior safety specialists from the military, industry,
        academia, and Government that reports to Congress and the Agency. Levels of software criticality at
        NASA range from one failure in the software causing the loss of life or loss of the spacecraft to multiple
        failures in the software merely causing some loss of data or inconvenience to the operator.



REPORT NO. IG-14-024                                                                                                 11
                                                                                                             RESULTS



     In our judgment, this guidance only partially addresses ASAP’s recommendation because
     it does not explicitly address documenting the reason for risk acceptance, as required in
     NASA policy.24 NASA needs to ensure that when projects do not meet the requirements
     for IV&V services the associated risks are managed in accordance with Agency risk
     management guidance.25 This guidance states that when a decision is made to accept a
     risk, the risk manager shall ensure that acceptance is clearly documented in the project’s
     risk database, including the assumptions and conditions on which the acceptance is based.
     It is important to document risks in this manner so that OSMA personnel, who plan and
     manage other software verification and validation activities across the Agency, have
     access to this information so that they can benefit from the software risk description and
     the documented rationale for accepting the risk.26 In addition, other projects with similar
     software may benefit from knowing the actions taken to mitigate the risks.

     For example, in 2009, software associated with a NASA tracking and data relay satellite
     (TDRS-K) was identified as a candidate for IV&V services; however, insufficient
     funding prevented the software from being evaluated, and no requirement existed for the
     project to note the lack of IV&V services in any risk database.27 Although not required
     under NASA risk management guidance, TDRS-K project management decided to
     perform additional software verification and validation to increase their confidence that
     the software would perform as required. While this additional software verification and
     validation was technically independent from the organization that developed the
     software, it cannot be considered independent, as the testing was not managerially or
     financially independent. After launch, the flight software did not operate properly and
     allowed noise from a gyro to interfere with orbit operations, which in turn caused an issue
     with the satellite reaching proper orbit.28 Ground controllers had to uplink a software
     change to fix the problem.

     While there is no certainty that the IV&V Program would have found and corrected the
     software problem prior to launch, we confirmed that the Program listed “achieving orbit”
     as a high-risk software capability and could have performed IV&V on the software that
     controlled the gyro. The existence and details concerning this software issue are not
     recorded in the TDRS-K project’s risk database and therefore not readily available to




     24
          NASA Interim Directive (NID): NPR 7150.2A, NASA Software Engineering Requirements, with
          identification number “NID 7150-1” December 16, 2013.
     25
          NPR 8000.4A “Agency Risk Management Procedural Requirements (Revalidated 1/29/14),”
          December 16, 2008.
     26
          The project’s software verification and validation is not considered independently verified and validated
          because it is not managerially, technically, and financially independent from the organization that
          developed the software.
     27
          The TDRS project provides continuous communications services to NASA’s low earth-orbiting missions.
     28
          "Gyro" is commonly used as shorthand for “inertial reference unit.” A gyro is used to determine “which
          way is up” when it is not feasible to use Earth’s gravity or the direction of a star.



12                                                                                           REPORT NO. IG-14-024
RESULTS



   provide information for future decisions regarding the TDRS-K project or other projects
   that have similar software challenges. Further, if full documentation of this software’s
   history was in a risk database, future projects implementing innovative gyro systems
   could use this information to make informed decisions related to IV&V services and risk
   management on their projects.

Recommendation
   Recommendation 3. To better assess risks associated with projects not selected for
   IV&V, we recommend the Chief of Safety and Mission Assurance ensure the IV&V
   waiver process includes a requirement to document the risk of not performing IV&V in
   accordance with NASA’s risk management guidance.
    Management’s Response. Management concurred, stating that by June 30, 2015, they
    will ensure the IV&V waiver process includes a requirement to assess and document
    the risk of not performing IV&V in accordance with NASA's risk management
    requirements.

    Evaluation of Management’s Response. Management’s comments are responsive;
    therefore, the recommendation is resolved and will be closed upon verification and
    completion of the proposed corrective action.




REPORT NO. IG-14-024                                                                          13
APPENDIXES




                                                      SCOPE AND METHODOLOGY


Scope and Methodology

   We performed this audit from March 2013 through June 2014 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   We performed our fieldwork at the IV&V Facility in Fairmont, West Virginia; Goddard
   Space Flight Center; Johnson Space Center; and Marshall Space Flight Center. To assess
   NASA’s utilization of IV&V funding and facilities, we analyzed data obtained from the
   OCE, OSMA, NASA Shared Services Center, and NASA IV&V Program officials. We
   interviewed key personnel from OCE at NASA Headquarters and Marshall Space Flight
   Center, the Chief of Safety and Mission Assurance, IV&V Program Director, IV&V
   support staff, select project managers, and Center software assurance engineers. We
   determined their roles and responsibilities as they relate to the process of providing
   IV&V services.

   We obtained and reviewed the inventory of software maintained by the OCE to identify if
   other programs or projects could have been identified and included with the inventory
   and determined whether NASA followed the appropriate process for selecting programs
   and projects for IV&V. We also obtained and reviewed documentation related to the
   establishment of the IV&V Facility. In addition, we reviewed IV&V Program O&M
   expenses, indirect costs, and identified facility alternatives. In our review of the research
   grant and any associated documentation, we obtained legal counsel to identify legal
   issues. Our review identified ways in which more funds could be available for IV&V
   services.

   Federal Laws, Regulations, Policies, and Guidance. We reviewed all applicable
   Federal, Agency, and Center level regulations and guidance, including the following:

         Code of Federal Regulations (CFR), Title 14, Aeronautics and Space, Chapter V,
          National Aeronautics and Space Administration, Part 1260, “Grants and
          Cooperative Agreements”
         “Department of Veteran Affairs and Housing and Urban Development, and
          Independent Agencies Appropriations Act, 1992” (Public Law 102-139, 105 Stat.
          736), October 28, 1991




REPORT NO. IG-14-024                                                                               15
                                                                                    APPENDIX A



           Office of Management and Budget (OMB) Circular A-21, “Cost Principles for
            Educational Institutions,” revised May 10, 2004
           OMB Circular A-110, “Uniform Administrative Requirements for Grants and
            Agreements with Institutions of Higher Education, Hospitals, and Other
            Non-Profit Organizations,” revised November 19, 1993, as further amended
            September 30, 1999
           OMB Circular A-122, Cost Principles for Non-profit Organizations, revised May
            10, 2004

     NASA Policies and Procedures

           NASA Procedural Requirement (NPR) 7120.5E, “NASA Space Flight Program
            and Project Management Requirements w/changes 1-10,” August 14, 2012
           NPR 7150.2A, “NASA Software Engineering Requirements,” November 19, 2009
           NPR 8000.4A “Agency Risk Management Procedural Requirements (Revalidated
            1/29/14),” December 16, 2008
           NPR 8705.4, “Risk Classification for NASA Payloads (Revalidated w/change 2
            dated June 12, 2013,” June 14, 2004
           NPR 8831.2E, “Facility Maintenance and Operations Management,”
            November 18, 2008
           NASA Policy Directive 7120.4D, “NASA Engineering and Program/Project
            Management Policy,” March 16, 2010
           NASA Policy Directive 8800.14D, “Policy for Real Estate Management
            (Revalidated, October 14, 2009),” July 15, 2004
     “NASA Interim Directive (NID) 7150-1, NID for NPR 7150.2A, NASA Software
     Engineering Requirements,” December 16, 2013.

     Use of Computer-Processed Data. We used computer-processed data to perform this
     audit. We obtained information from the Chief of Safety and Mission Assurance and
     NASA’s Chief Engineer that was a result of data manually entered into a spreadsheet to
     report NASA’s software inventory. This information was reviewed but not verified
     during the audit. We also obtained computer processed data from IV&V Program
     officials to support the special program totals identified in the NASA Form (NF) 533 M,
     “Monthly Contractor Financial Management Report,” for FYs 2009 through 2013.
     Because of our interest in IV&V special projects, we selected the four special project
     accounts identified in the NF 533 M for reconciliation. Differences were identified but
     eventually IV&V officials provided documentation that reconciled these differences.




16                                                                        REPORT NO. IG-14-024
APPENDIX A



Review of Internal Controls

   We reviewed IV&V management system documentation, NASA requirements and
   directives, and interviewed NASA officials with oversight responsibilities for the NASA
   policy requirements. In our review of NPR 8000.4A, “Agency Risk Management
   Procedural Requirements (Revalidated 1/29/14),” December 16, 2008, we found when
   NASA software projects are critical enough to need IV&V, but not receive IV&V, the
   identified risk is not completely managed in accordance with NASA’s risk management
   guidance. We determined that NASA risk managers, when deciding to accept a risk,
   shall ensure that each acceptance is clearly documented in their organizational unit's risk
   database (list), including the assumptions and conditions (risk acceptability criterion) on
   which the acceptance is based. If a software project needs IV&V services but does not
   receive these services, NASA should ensure that the waiver process includes
   documenting the acceptance of the associated risk in the appropriate project’s risk
   database. (See Other Matters)

Prior Coverage

   Reports related to the origins of the IV&V Program and performance of IV&V services at
   NASA date back to 1986. The NASA Office of Inspector General has not issued any
   applicable audit reports during the last 5 years. Unrestricted reports can be accessed over
   the Internet at http://oig.nasa.gov/audits/reports/FY13 (NASA Office of Inspector General).

   NASA Office of Inspector General

   “Independent Verification and Validation of Software,” IG-03-011, March 28, 2003

   “Audit of Software Assurance,” IG-00-59, September 28, 2000

   NASA Aerospace Safety Advisory Panel

   “Annual Report for 2012,” January 9, 2013

   “ASAP Recommendations, Third Quarter 2012,” August 8, 2012

   National Research Council

   Committee on Shuttle Criticality, Review and Hazard Analysis Audit of the Aeronautics
   and Space Engineering Board with staff support from the Space Applications Board,
   Commission on Engineering and Technical Systems, “Post-Challenger Evaluation of
   Space Shuttle Risk Assessment and Management,” January 1988

   Presidential (Rogers) Commission

   “Report of the Presidential Commission on the Space Shuttle Challenger Accident,”
   June 6, 1986


REPORT NO. IG-14-024                                                                             17
                                                                                                          APPENDIX B




                                                                  FUNDS PUT TO BETTER USE,
                                                                        METHODOLOGY, AND
                                                                    PROJECTION OF RESULTS

     We performed an analysis on the budgets for O&M and other expenses provided to us by
     IV&V officials to identify savings for two of the alternatives we identified: 29

               Alternative 1 would relocate the staff currently located in Building 1 to leased space in
                Building 2 and dispose of Building 1. For the additional space leased in Building 2,
                we identified and included build-out costs and information technology (IT) costs.
                These costs were calculated using the same methodology (costs per square foot) as the
                build-out costs the IV&V Program paid in FY 2010. These build-out costs are
                included in the FY 2015 cost estimates for Alternative 1.
               Alternative 2 would relocate civil servant staff to Goddard where the IV&V Program
                is supported and dispose of Building 1. The NASA Shared Services Center (NSSC)
                calculated relocation cost estimates for 44 civil servant staff based on a family of four,
                a house hunting trip, movement of goods, 60 days storage, 60 days temporary
                quarters, real estate sale and purchase costs, miscellaneous expenses, and tax
                allowances. These relocation costs are included in the FY 2015 cost estimates for
                Alternative 2.

     For our analysis, we confirmed with IV&V officials the expense categories and associated
     costs identified with Building 1, Building 2, or both buildings. Building 1 costs include
     facility insurance, electric, fire protection fee, garbage, natural gas, water, Crothal (O&M
     contractor), NASA special projects, capital replacement special projects, and facility and
     administration. Building 2 costs include the lease (all costs identified in Building 1 are
     included in the lease for Building 2) and any costs for office build-out and IT build-out when
     space was originally leased. Both buildings costs include General Service Administration
     vehicles; Agency Consolidated End-User Services (ACES); Task Order Management System;
     Goddard Protective Services; direct labor costs and overhead costs at 27 percent; library
     supplies; phone service; postage and shipping; Adnet labor; Adnet hardware, software, and IT
     security; Adnet maintenance; Adnet professional services and training; and office supplies.
     We also confirmed the costs that would be eliminated if Building 1 was vacated and disposed
     of (all special projects and facility and administration). See Table 6 for the alternatives and
     potential savings identified during our analysis.

     29
          O&M expenses include 19 categories: direct labor and overhead at 27 percent; facility insurance; library
          supplies; phone service; postage and shipping; electric; fire protection fee; garbage; natural gas; water;
          O&M contractor; Adnet labor; Adnet hardware, software, information technology security; Adnet
          maintenance; Adnet professional services and training; office supplies; NASA special projects; capital
          replacement special projects; and facility and administration. Other expenses include General Service
          Administration vehicles, ACES, Task Order Management System, Goddard Protective Services, and
          Building 2 lease.



18                                                                                            REPORT NO. IG-14-024
      APPENDIX B



              Table 6. IV&V Program O&M and Other Expenses and the Potential Savings
                                   for the Identified Alternatives
                     O&M and Other Expenses                             Alternative 1                      Alternative 2
                                                                                                        Costs of
                                                                 Costs of adding
                                                                                                    relocating civil
 Fiscal                                 Both                    space in Building
                                                                                                      servants to
 Year     Building 1 Building 2      Buildings 1    Total      2 for civil servants     Savings                         Savings
                                                                                                     Goddard and
                                       and 2                     and eliminating
                                                                                                      eliminating
                                                                   Building 1
                                                                                                      Building 1
2015        $2.98M          $.57 M      $3.90M $7.45M                      $7.67M       $(.22M)              $7.91M      $(.46M)
2016         2.93M            .58M       4.00M $7.51M                       4.81M        2.70M                 4.24M      3.27M
2017         2.98M            .59M       4.21M $7.78M                       5.03M        2.75M                 4.45M      3.33M
2018         3.15M            .60M       4.22M $7.97M                       5.06M        2.91M                 4.46M      3.51M
Total      $12.04M         $2.34M      $16.33M $30.71M                    $22.57M       $8.14M              $21.06M      $9.65M
Savings
over 4                                                                                   26.52%                           31.42%
years
                                                            Legend
M = dollars in millions                                                 Included $1,084,014.22 office build-out and
K = dollars in thousands                                                $1,880,688.36 IT build-out ($2,964,702.58)
                                                                        Included charges for relocating 44 civil servants (44 x
                                                                        $85,522.84 = $3,763,004.96)
                                                                        Savings
          Source: Data provided by NASA IV&V Program official and NASA Office of Inspector General analysis.

          For costs associated with both buildings, we made assumptions for the two alternatives.
          Using a conservative approach, we identified most costs (General Service Administration
          vehicles; ACES; Task Order Management System; library supplies; phone service;
          postage and shipping; Adnet labor; Adnet hardware, software, and IT security; Adnet
          maintenance; Adnet professional services and training; and office supplies) would
          continue under both alternatives, either being paid by the IV&V Program or Goddard,
          and no reductions were identified.

          The remaining expenses increased, reduced, or eliminated as follows:

                  Goddard Protective Services would still be required but would decrease because
                   of the reduced entry points by 25 percent under Alternative 1 and 50 percent
                   under Alternative 2.

                  The O&M contractor would still be required for both Alternative 1 and
                   Alternative 2 but would decrease by about 67 percent.

                  Direct labor and overhead costs for a site support contractor would still be
                   required for both Alternatives 1 and 2 but would decrease by about 67 percent for
                   each.



      REPORT NO. IG-14-024                                                                                               19
                                                                                                      APPENDIX B



               The Building 2 lease costs would increase for Alternative 1 because of the
                additional leased space but would remain the same for Alternative 2.

               Facility insurance, electric, fire protection fee, garbage, natural gas, and water are
                included with the Building 2 lease costs and would be eliminated for both
                Alternatives 1 and 2.

               Special projects (NASA and Capital Replacement) and indirect costs are
                associated only with Building 1 and would be discontinued for both Alternatives 1
                and 2.

     IV&V support personnel believe that for Alternative 1 more leased space in Building 2 is
     required than what we propose. IV&V officials identified 14,793 square feet of space
     available in Building 2 and said that 210 square feet is required per person. As of May
     2014, the staffing for both buildings was 190. IV&V requirements identified that the
     available space under Alternative 1 would accommodate 200 staff members. For current
     staffing, the proposed space appears more than adequate.

     In addition to the above expenses, for Alternative 2 there could be additional labor
     expenses depending on the location to which civil servants are assigned. If the civil
     servants are relocated to Goddard, the increase in labor could be as much as $2.3 million
     for FYs 2015 through 2018. This was calculated using Office of Personnel
     Management 2014 pay tables for Goddard locality and the rest of the United States
     (Fairmont, West Virginia). Salaries for Goddard are 8.81 percent higher and the civil
     servant labor identified for FYs 2015 through 2018 was $26.3 million, thus $26.3 million
     times 8.81 percent is equal to $2,317,030.

     With this information we then calculated the costs for FYs 2015 through 2018 and then
     calculated the associated dollar savings (funds put to better use) and the savings
     percentages calculated if the IV&V Facility continued to operate as proposed.30




     30
          We did not calculate the costs for FY 2014 because IV&V Program officials would need time to initiate
          the alternatives.



20                                                                                        REPORT NO. IG-14-024
APPENDIX C




                       MANAGEMENT COMMENTS




REPORT NO. IG-14-024                         21
             APPENDIX C




22   REPORT NO. IG-14-024
APPENDIX D




                                                      REPORT DISTRIBUTION

National Aeronautics and Space Administration

   Administrator
   Deputy Administrator
   Chief of Staff
   Goddard Space Flight Center Director
   Chief of Safety and Mission Assurance
   NASA Independent Verification & Validation Program Office Director
   NASA Chief Engineer

Non-NASA Organizations and Individuals

   Office of Management and Budget
      Deputy Associate Director, Energy and Science Division
          Branch Chief, Science and Space Programs Branch
   Government Accountability Office
      Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

   Senate Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   Senate Committee on Commerce, Science, and Transportation
      Subcommittee on Science and Space
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   House Committee on Oversight and Government Reform
      Subcommittee on Government Operations
   House Committee on Science, Space, and Technology
      Subcommittee on Oversight
      Subcommittee on Space




REPORT NO.IG-14-024                                                         23
Major Contributors to the Report:
   Wen Song, Director, Information Technology Directorate
   Cedric D. Campbell, Esq. Associate Counsel to the Inspector General
   Vincent Small, Project Manager
   Mike Beims, Audit Lead
   Bessie Cox, Auditor
   Bret Skalsky, Auditor




REPORT NO. IG-14-024                                                     25
                                                                                   JULY 16, 2014
                                                                    REPORT NO. IG-14-024




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
